TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Processes Ensure That Taxpayer
                      Identification Numbers Used to Claim
                        Dependent Exemptions Are Valid



                                           June 4, 2013

                              Reference Number: 2013-40-059




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                HIGHLIGHTS


PROCESSES ENSURE THAT TAXPAYER                      However, the IRS limits the number of
IDENTIFICATION NUMBERS USED TO                      dependent TINs it verifies on each tax return.
CLAIM DEPENDENT EXEMPTIONS ARE                      Our review of a statistically valid sample of 519
VALID                                               of the 217,192 tax returns containing dependent
                                                    TINs not verified by the IRS for Processing
                                                    Year 2012 identified only three tax returns that
Highlights                                          contained invalid dependent TINs. Based on
                                                    our review, TIGTA estimates that the unverified
                                                    dependent TINs claimed on 215,937
Final Report issued on June 4, 2013                 (99.4 percent) of the 217,192 Processing Year
                                                    2012 tax returns were valid.
Highlights of Reference Number: 2013-40-059
to the Internal Revenue Service Commissioner        WHAT TIGTA RECOMMENDED
for the Wage and Investment Division.
                                                    TIGTA made no recommendations in this report.
IMPACT ON TAXPAYERS
Individuals claimed $641 billion in exemptions in
Processing Year 2012. Exemptions reduce the
amount of income on which an individual’s tax is
computed. Individuals can claim one personal
exemption and one exemption for each person
that they can claim as a dependent. Taxpayers
must enter a valid Taxpayer Identification
Number (TIN) for each dependent they claim.
The IRS may disallow the exemption if a valid
TIN is not provided.
WHY TIGTA DID THE AUDIT
This audit was initiated to determine whether the
validation of dependent TINs used to claim
exemptions on tax returns is sufficient to reduce
the risk of improper payments and loss of tax
revenue.
WHAT TIGTA FOUND
The IRS verified more than 99.6 percent
(95.2 million) of the 95.6 million dependents
claimed on Processing Year 2012 tax returns.
IRS controls ensure that dependent TINs used
to claim dependent exemptions are valid
numbers.
A TIN is considered valid if the identification
number and name match Social Security
Administration or IRS records. The IRS rejects
electronically filed tax returns and sends them
back to the taxpayer for correction if the TIN
and/or name on the tax return do not match IRS
records. If the TIN and/or name on a paper tax
return do not match the IRS’s information, the
IRS disallows the exemption and sends the
taxpayer a notice regarding the mismatch.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 4, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes Ensure That Taxpayer Identification
                             Numbers Used to Claim Dependent Exemptions Are Valid
                             (Audit # 201240042)

 This report presents the results of our review to determine whether the validation of dependent
 Taxpayer Identification Numbers used to claim exemptions on tax returns is sufficient to reduce
 the risk of improper payments and loss of tax revenue. This audit is included in our Fiscal
 Year 2013 Annual Audit Plan and addresses the major management challenge of Erroneous and
 Improper Payments and Credits.
 Because we made no recommendations in this report, the Internal Revenue Service decided not
 to provide a formal response.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report. If you have questions, please contact me or Russell P. Martin, Acting Assistant Inspector
 General for Audit (Returns Processing and Account Services).
                     Processes Ensure That Taxpayer Identification Numbers Used to
                                Claim Dependent Exemptions Are Valid




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Controls Ensure That Dependent Taxpayer Identification
          Numbers Used to Claim Exemptions Are Valid ........................................... Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Processes Ensure That Taxpayer Identification Numbers Used to
                     Claim Dependent Exemptions Are Valid




                           Abbreviations

e-filed             Electronically filed
IRS                 Internal Revenue Service
SSN                 Social Security Number
TIN                 Taxpayer Identification Number
                 Processes Ensure That Taxpayer Identification Numbers Used to
                            Claim Dependent Exemptions Are Valid




                                           Background

Any person who files a tax return is required to include an identifying number, referred to as a
Taxpayer Identification Number (TIN). For the majority of individuals, the TIN is their Social
Security Number (SSN). Some individuals use an Individual Taxpayer Identification Number or
an Internal Revenue Service (IRS) Number. An Individual Taxpayer Identification Number is
used when an individual cannot obtain an SSN, and an IRS Number is used where there is a
problem with an individual’s tax account involving the individual’s SSN. A valid TIN1 must be
provided on Form 1040, U.S. Individual Income Tax Return, for the:
       Primary taxpayer – the individual who is filing the tax return.
       Secondary taxpayer – the spouse of the primary taxpayer.
       Dependent(s) of the individual filing the tax return, if one or more are claimed.
A dependent may be a child or other relative. To qualify as a dependent, the child or other
relative must meet specific criteria. Figure 1 provides an overview of the rules for claiming an
exemption for a dependent. Detailed rules for claiming a dependent exemption can be found in
the instructions for completing Form 1040 and in IRS Publication 501, Exemptions, Standard
Deduction, and Filing Information.




1
 A TIN is considered valid if the number and name provided on the tax return match Social Security Administration
or IRS records.
                                                                                                         Page 1
                    Processes Ensure That Taxpayer Identification Numbers Used to
                               Claim Dependent Exemptions Are Valid



     Figure 1: Overview of the Rules for Claiming an Exemption for a Dependent

    • You cannot claim any dependents if you, or your spouse if filing jointly, could be claimed as a dependent by
       another taxpayer.
    • You cannot claim a married person who files a joint return as a dependent unless that joint return is only a
      claim for refund and there would be no tax liability for either spouse on separate returns.
    • You cannot claim a person as a dependent unless2 that person is a U.S. citizen, a U.S. resident alien, a
      U.S. national, or a resident of Canada or Mexico.

    • You cannot claim a person as a dependent unless that person is your qualifying child or qualifying relative.

              Tests To Be a Qualifying Child                             Tests To Be a Qualifying Relative

     1. The child must be your son, daughter, stepchild,         1. The person cannot be your qualifying
        foster child, brother, sister, half-brother,                child or the qualifying child of any other
        half-sister, stepbrother, stepsister, or a                  taxpayer.
        descendant of any of them.

     2. The child must be (a) under age 19 at the end of         2. The person either (a) must be related to you in one
        the year and younger than you (or your spouse, if           of the ways listed under Relatives who do not have
        filing jointly), (b) under age 24 at the end of the         to live with you, or (b) must live with you all year as
                                                                                                    3
        year, a full-time student, and younger than you (or         a member of your household (and your
        your spouse, if filing jointly), or (c) any age if          relationship must not violate local law).
        permanently and totally disabled.
                                                                 3. The person’s gross income for the year must be
                                                                                                           4
     3. The child must have lived with you for more than            less than $3,700 ($3,800 for TY 2012).
        half of the year.
                                                                 4. You must provide more than half of the
     4. The child must not have provided more than half                                                 5
                                                                    person’s total support for the year.
        of his or her own support for the year.
     5. The child is not filing a joint return for the year
        (unless that joint return is filed only as a claim for
        refund).
     If the child meets the rules to be a qualifying child of
     more than one person, only one person can actually
     treat the child as a qualifying child. See the Special
     Rule for Qualifying Child of More Than One Person
     described later to find out which person is the person
     entitled to claim the child as a qualifying child.

Source: IRS Publication 501 for Tax Year6 2011 tax returns available at www.IRS.gov.



2
  There is an exception for certain adopted children.
3
  There are exceptions for temporary absences, children who were born or died during the year, children of divorced
or separated parents or parents who live apart, and/or kidnapped children.
4
  There is an exception if the person is disabled and has income from a sheltered workshop.
5
  There are exceptions for multiple support agreements; children of divorced or separated parents, or parents who
live apart; and/or kidnapped children.
6
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                                  Page 2
                    Processes Ensure That Taxpayer Identification Numbers Used to
                               Claim Dependent Exemptions Are Valid



An individual can claim up to four dependents on the front of his or her tax return. Individuals
claiming more than four dependents must check the box in the exemptions section of Form1040
and attach a statement to the tax return listing the name, TIN, and relationship for each additional
dependent.
Individuals are allowed one exemption for each person they can claim as a dependent.
Exemptions reduce the amount of income on which an individual’s tax is computed. Individuals
claimed $641 billion in dependent exemptions in Processing Year7 2012. Figure 2 shows the
location of each TIN on Form 1040, as well as the information required to claim a dependency
exemption.
          Figure 2: Tax Year 2011 Form 1040, U.S. Individual Income Tax Return




                                                                                                        
Source: Tax Year 2011 Form 1040 available at www.IRS.gov. 

Taxpayers were allowed to deduct $3,700 of income per exemption (whether personal or
dependency) for Tax Year 2011. For example, individuals claiming four dependents could
qualify for four dependency exemptions resulting in a deduction of $14,800 from taxable
income. The exemption amount for Tax Year 2012 is $3,800.




7
    The calendar year in which the tax return or document is processed by the IRS.
                                                                                             Page 3
               Processes Ensure That Taxpayer Identification Numbers Used to
                          Claim Dependent Exemptions Are Valid



This review was performed at the IRS Wage and Investment Division Headquarters in
Atlanta, Georgia, and the Customer Account Services Submission Processing function in
Cincinnati, Ohio, during the period August 2012 through February 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 4
                  Processes Ensure That Taxpayer Identification Numbers Used to
                             Claim Dependent Exemptions Are Valid




                                       Results of Review

Controls Ensure That Dependent Taxpayer Identification Numbers
Used to Claim Exemptions Are Valid
IRS controls are effective in ensuring that individuals provide valid TINs when claiming
dependency exemptions. A TIN is considered valid if the number and name provided on the tax
return match Social Security Administration or IRS records. Our review identified that the IRS
verified the TINs of more than 99.6 percent (95.2 million) of the 95.6 million dependents
claimed on Processing Year 2012 tax returns.8 However, the IRS limits the number of dependent
TINs it verifies on each tax return. The remaining 344,670 dependent TINs not verified by the
IRS were claimed as exemptions on 217,192 tax returns. Figure 3 shows the number of
dependent TINs claimed and verified on Processing Year 2012 tax returns.
                 Figure 3: Number of Dependent TINs Claimed and Verified
                                for Processing Year 2012

                                                                                                  Percentage
                                  Dependents Claimed             Dependents Verified
                                                                                                   Verified
    Paper Tax Returns                    13,683,709                     13,341,812                    97.5%
    Electronically filed
                                         81,924,604                     81,921,831                    99.9%
    (e-filed) Tax Returns
             Total                       95,608,313                     95,263,643                    99.6%
Source: IRS Individual Return Transaction File9 for Processing Year 2012 tax returns.

A review of a statistically valid sample of dependent TINs that were not verified
confirmed that most taxpayers provided valid TINs
Our review of a statistically valid sample of 51910 of the 217,192 tax returns with dependent
TINs that the IRS did not verify for Processing Year 2012 identified that only three tax returns


8
  Our assessment was limited to whether the IRS ensured that the dependent TIN was valid. We did not assess
whether the individual claiming the dependent met specific requirements for claiming a dependent, i.e., income,
residency, etc.
9
  The Individual Returns Transaction File contains all edited, transcribed, and error-corrected tax return data from
the Form 1040 series tax returns and related forms.
10
   We selected a statistically valid sample of 300 paper returns. Of the 300 paper returns, only 269 returns were
available for review. We selected a statistically valid sample of 250 e-filed tax returns.
                                                                                                               Page 5
                 Processes Ensure That Taxpayer Identification Numbers Used to
                            Claim Dependent Exemptions Are Valid



contained invalid dependent TINs. Based on our review, we estimate that the unverified
dependent TINs claimed on 215,937 (99.4 percent) of the 217,192 Processing Year 2012 tax
returns were valid TINs.
IRS instructions caution taxpayers that they must enter a TIN for each dependent they are
claiming as an exemption. Taxpayers should ensure that the name and TIN entered agree with
the dependent’s social security card or IRS records if the TIN was assigned to the individual by
the IRS.11 Once a tax return is received, the IRS matches the dependent TINs listed on the tax
return to internal IRS records and to information provided by the Social Security Administration.
The IRS rejects e-filed tax returns back to the taxpayer for correction if the TIN and/or name on
the tax return do not match IRS records. This gives taxpayers the opportunity to correct any
errors in the dependent TIN or name before the tax return is processed. If the TIN and/or name
on a paper tax return do not match the IRS’s information, the IRS disallows the exemption.
Figure 4 illustrates the process the IRS uses to verify dependent TINs.
                    Figure 4: Process to Identify Invalid Dependent TINs

             E-filed Tax Returns                                      Paper Tax Returns
 The taxpayer submits an e-filed tax return          The taxpayer completes and mails a tax return
 claiming dependents.                                claiming dependent(s) exemption.
 Prior to accepting the tax return for               The tax return is received and IRS employees enter
 processing, the IRS matches the                     the tax return into the IRS’s computer processing
 dependent’s TIN and name to IRS and                 system.
 Social Security Administration records.
 If the TIN and/or name do not match, the            The IRS matches the dependent’s TIN and name to
 IRS rejects the tax return and provides the         IRS and Social Security Administration records.
 taxpayer the reason the tax return was
 rejected.
 The taxpayer corrects the dependent TIN or          If the TIN and/or name do not match, the IRS
 name and resubmits the tax return to the            disallows the exemption.12
 IRS.
 The IRS accepts and processes the tax               The IRS processes the tax return and issues a tax
 return and issues a tax refund, if applicable.      refund, if applicable.
Source: IRS Internal Revenue Manual.

We also determined that unverified TINs were used to claim exemptions on more than one tax
return. For example, the 519 tax returns we sampled had 792 unique TINs listed on the tax
returns that were not verified by the IRS. We found that 27 (3 percent) TINs were used to claim

11
   An Individual Taxpayer Identification Number or an IRS Number is assigned by the IRS to individuals who
cannot obtain an SSN or there is a problem with an individual’s tax account involving their SSN.
12
   Taxpayers have 60 calendar days to dispute an adjustment to their tax return.
                                                                                                        Page 6
               Processes Ensure That Taxpayer Identification Numbers Used to
                          Claim Dependent Exemptions Are Valid



an exemption on more than one tax return. The IRS generally must conduct an audit of the tax
returns involved in the multiple use of a TIN to determine which TIN use is correct. In Fiscal
Years 2010 through 2012, the IRS closed 140,959 audits of tax returns using multiple TINs and
recommended additional tax assessments totaling more than $413 million.




                                                                                         Page 7
                  Processes Ensure That Taxpayer Identification Numbers Used to
                             Claim Dependent Exemptions Are Valid



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the validation of dependent TINs
used to claim exemptions on tax returns is sufficient to reduce the risk of improper payments and
loss of tax revenue. To accomplish this objective, we:
I.       Identified the procedures and guidelines for verifying dependent TINs on paper and
         e-filed tax returns.
II.      Determined if unverified dependent TINs claimed on paper and e-filed tax returns are
         valid.
         A. Obtained a computer extract from the Treasury Inspector General for Tax
            Administration Data Center Warehouse1 for all returns containing one or more
            dependents for Processing Year 2012 listed on the Individual Return Transaction
            File.2 We then identified tax returns where the taxpayer claimed more dependents on
            the tax return than the number of dependents the IRS verifies per tax return.
         B. Reviewed two statistically valid samples of tax returns with more dependents than the
            IRS will verify for Processing Year 2012. Statistical samples were selected in order
            to project to the population. We selected a statistical sample of 300 paper tax returns
            from a population of 215,508 tax returns. Our sample size was based on a 95 percent
            confidence level, an expected error rate of 25 percent, and a precision of ± 5 percent.
            In addition, we selected a statistical sample of 250 e-filed tax returns from a
            population of 1,684 e-filed tax returns. Our sample size was based on a 95 percent
            confidence level, an expected error rate of 25 percent, and a precision of ± 5 percent.
            The data from the first 30 returns in both samples were matched to the Integrated
            Data Retrieval System3 to validate that the data were accurate.
         C. Obtained the Processing Year 2012 tax returns of the taxpayers in our samples and
            reviewed the dependents on the Integrated Data Retrieval System to determine if the
            dependents’ TINs were valid.



1
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
Treasury Inspector General for Tax Administration for the purpose of analyzing data for ongoing audits.
2
  The Individual Return Transaction File contains all edited, transcribed, and error-corrected tax return data from the
Form 1040, U.S. Individual Income Tax Return, series tax returns and related forms.
3
  An IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                               Page 8
              Processes Ensure That Taxpayer Identification Numbers Used to
                         Claim Dependent Exemptions Are Valid



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices related to processing claims for dependent exemptions, and the identification of
potential erroneous claims for these exemptions. We assessed these controls through interviews
with IRS management, analysis of IRS policies and procedures, and review of dependent
exemptions not verified by the IRS.




                                                                                        Page 9
               Processes Ensure That Taxpayer Identification Numbers Used to
                          Claim Dependent Exemptions Are Valid



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Kyle R. Andersen, Director
Deann L. Baiza, Director
Larry Madsen, Audit Manager
Annette Bates, Senior Auditor
Jennie Choo, Senior Auditor
Nathan J. Smith, Auditor




                                                                                          Page 10
              Processes Ensure That Taxpayer Identification Numbers Used to
                         Claim Dependent Exemptions Are Valid



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
  SE:W:S:PEI




                                                                                  Page 11
